OIG Investigative Reports, Camden NJ., September 20, 2012 - Former Vice President With Prism Career Institute Pleads Guilty To Stealing More Than $400,000 From Employer
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
DISTRCIT OF NEW JERSEY
NEWS
FOR IMMEDIATE RELEASE
September 20, 2012
Former Vice President With Prism Career Institute Pleads Guilty To Stealing More Than $400,000 From Employer
CAMDEN, N.J. – A former vice president of operations at Prism Career Institute, a private, post-secondary educational institution with campuses in Cherry Hill, N.J., Egg Harbor Township, N.J., and Pennsylvania, admitted today that she stole more than $400,000 from her employer between 2008 and 2011, U.S. Attorney Paul J. Fishman announced.
Diane Bowler, 53, of Sewell, N.J., pleaded guilty before U.S. District Judge Renée Marie Bumb in Camden federal court to embezzling, stealing, and obtaining by fraud money belonging to Prism Career Institute, which receives federal funds from the U.S. Department of Education.
According to documents filed in this case and statements made in court:
Diane Bowler was a regional vice president of operation at Prism, authorized to make purchases on behalf of Prism with her personal credit cards and then submit the receipts of these purchases to Prism for reimbursement. Bowler admitted that she stole more than $400,000 from Prism by submitting fraudulent reimbursement requests for purchases of supplies, furniture, equipment, and other items that were never received by Prism. She falsified invoices by cutting and pasting new dates and invoice numbers onto prior receipts for purchases and by fraudulently creating invoices for certain vendors with which Prism no longer did business. Bowler would forge the CEO of Prism's signature on reimbursement checks and in some instances signed the checks herself before depositing the money into her personal bank account.
The charge of theft from programs receiving federal funds to which Bowler pleaded guilty carries a maximum potential penalty of 10 years in prison and a $250,000 fine. Judge
Bumb scheduled sentencing for Jan. 7, 2013.
U.S. Attorney Fishman credited special agents of the FBI's Resident Agency in Cherry Hill, N.J., under the direction of Special Agent in Charge George C. Venizelos; and special agents of the Department of Education - Office of the Inspector General, under the direction of Special Agent in Charge Brian Hickey, with the investigation leading to today's guilty plea.
The government is represented by Assistant U.S. Attorney Matthew J. Skahill of the Special Prosecutions Division in Camden.
12-341
Defense counsel: Richard Sparaco Esq., Cherry Hill, N.J.
Bowler Information
Top
Printable view
Last Modified: 09/25/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov